Nos. 19-368 & 19-369

In the Supreme Court of the United States
FORD MOTOR COMPANY,
v.

Petitioner,

MONTANA EIGHTH JUDICIAL DISTRICT COURT, et al.,
Respondents.
(Caption continued on inside cover)
On Writs of Certiorari to
the Supreme Courts of Montana and Minnesota
BRIEF OF THE CHAMBER OF COMMERCE OF
THE UNITED STATES OF AMERICA,
THE NATIONAL ASSOCIATION OF
MANUFACTURERS, AND THE
AMERICAN TORT REFORM ASSOCIATION AS
AMICI CURIAE IN SUPPORT OF PETITIONER
ANDREW J. PINCUS
Counsel of Record
ARCHIS A. PARASHARAMI
DANIEL E. JONES
CARMEN N. LONGORIA-GREEN
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
(202) 263-3000
apincus@mayerbrown.com
Counsel for Amici Curiae
(additional counsel listed on signature page)

FORD MOTOR COMPANY,
Petitioner,
v.
ADAM BANDEMER,
Respondent.

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES..................................... iii
INTEREST OF THE AMICI CURIAE ...................... 1
INTRODUCTION AND SUMMARY OF ARGUMENT ............................................................. 3
ARGUMENT .............................................................. 5
I. Specific Personal Jurisdiction Requires A
Substantial Causal Connection Between
The Defendant’s Forum Contacts And The
Asserted Claim. .................................................... 5
A. Specific Jurisdiction Rests On The Forum’s Legitimate Interest In Regulating The Defendant’s Conduct Underlying The Asserted Claim. ............................... 6
B. The Relationship Between The Defendant’s Forum Activity And The Asserted Claim Must Be Sufficiently Significant To Create A Substantial Connection With The Forum State. .................... 8
1. The defendant’s forum activity
must be causally connected to the
plaintiff’s claim. ...................................... 9
2. The defendant’s forum activity
must also bear a sufficiently significant relationship to the claim
to create a substantial connection
with the forum State. ........................... 13
3. The stream-of-commerce metaphor does not support a different
specific jurisdiction standard. .............. 16

ii
TABLE OF CONTENTS—continued
Page
4.

Respondents’ policy arguments in
favor of a broad specific jurisdiction standard are unpersuasive. .......... 18
C. The Expansive Standard Applied Below Extended The Forum States’ Authority Far Beyond The Bounds Permitted By The Constitution. ....................... 21
II. Exercising Specific Jurisdiction Over Matters That Lack A Substantial Connection
To The Defendant’s Forum Contacts
Harms Businesses And The Federal System. ..................................................................... 26
A. Overly Expansive Approaches To Jurisdiction Impose Greater Uncertainty
On Businesses. ............................................ 26
B. Permitting Specific Jurisdiction Without A Substantial Connection Between
The Forum State And The Claim
Would Intrude On Other States’ Sovereignty. ....................................................... 28
CONCLUSION ......................................................... 29

iii
TABLE OF AUTHORITIES
Page(s)
Cases
Adv. Tactical Ordnance Sys., LLC v.
Real Action Paintball, Inc.,
751 F.3d 796 (7th Cir. 2014) ................................ 23
Asahi Metal Industry Co. v. Superior
Court,
480 U.S. 102 (1987) .............................................. 17
BNSF Railway Co. v. Tyrrell,
137 S. Ct. 1549 (2017) ............................................ 3
Bristol-Myers Squibb Co. v. Superior
Court,
137 S. Ct. 1773 (2017) .................................. passim
Burger King Corp. v. Rudzewicz,
471 U.S. 462 (1985) ........................................ 14, 15
California Div. of Labor Standards Enf’t
v. Dillingham Const., N.A., Inc.,
519 U.S. 316 (1997) .............................................. 12
Daimler AG v. Bauman,
571 U.S. 117 (2014) ...................................... passim
Goodyear Dunlop Tires Operations, S.A.
v. Brown,
564 U.S. 915 (2011) ................................................ 7
Hanson v. Deckla,
357 U.S. 235 (1958) .............................................. 24
Hertz Corp. v. Friend,
559 U.S. 77 (2010) ................................................ 26
Int’l Shoe Co. v. Washington,
326 U.S. 310 (1945) ...................................... passim

iv
TABLE OF AUTHORITIES—continued
Page(s)
J. McIntyre Machinery, Ltd. v. Nicastro,
564 U.S. 873 (2011) .............................. 7, 17, 26, 27
M.M. ex rel. Meyers v. GlaxoSmithKline
LLC,
61 N.E.3d 1026 (Ill. Ct. App. 2016) ..................... 15
New York State Conference of Blue Cross &
Blue Shield Plans v. Travelers Ins. Co.,
514 U.S. 645 (1995) .............................................. 12
Rush v. Savchuk,
444 U.S. 320 (1980) .............................................. 20
Walden v. Fiore,
571 U.S. 277 (2014) ...................................... passim
World-Wide Volkswagen Corp. v.
Woodson,
444 U.S. 286 (1980) ...................................... passim
Rules
Sup. Ct. R. 37.6 ............................................................ 1
Other Authorities
Carol Rice Andrews, The Personal
Jurisdiction Problem Overlooked in
the National Debate About “Class
Action Fairness,” 58 S.M.U. L. Rev.
1313 (2005) ........................................................... 27
Todd David Peterson, Categorical Confusion in Personal Jurisdiction Law,
76 Wash. & Lee L. Rev. 655 (2019) ..................... 17

v
TABLE OF AUTHORITIES—continued
Page(s)
Linda J. Silberman, The End of Another
Era: Reflections on Daimler and Its
Implications for Judicial
Jurisdiction in the United States,
19 Lewis & Clark L. Rev. 675 (2015) .................. 23

INTEREST OF THE AMICI CURIAE
The Chamber of Commerce of the United States of
America is the world’s largest business federation,
representing approximately 300,000 direct members
and indirectly representing the interests of more than
three million companies and professional organizations of every size, in every industry sector, and from
every region of the country. The Chamber represents
the interests of its members in matters before the
courts, Congress, and the Executive Branch. To that
end, the Chamber regularly files amicus curiae briefs
in cases that raise issues of concern to the Nation’s
business community, and has participated as amicus
curiae in numerous cases addressing personal jurisdiction, including Bristol-Myers Squibb Co. v. Superior Court, 137 S. Ct. 1773 (2017) (BMS), and Walden
v. Fiore, 571 U.S. 277 (2014).1
The National Association of Manufacturers
(NAM) is the largest manufacturing association in the
United States, representing small and large manufacturers in every industrial sector and in all 50 States.
Manufacturing employs more than 12 million men
and women, contributes $2.25 trillion to the U.S. economy annually, has the largest economic impact of any
major sector and accounts for more than three-quarters of all private-sector research and development in
the nation. The NAM is the voice of the manufacturing community and the leading advocate for a policy
agenda that helps manufacturers compete in the
Pursuant to Rule 37.6, amici affirm that no counsel for a party
authored this brief in whole or in part and that no person other
than amici, their members, and their counsel made a monetary
contribution to its preparation or submission. All parties consented to the filing of the brief.
1

2
global economy and create jobs across the United
States.
The American Tort Reform Association (ATRA) is
a broad-based coalition of businesses, corporations,
municipalities, associations, and professional firms
that have pooled their resources to promote reform of
the civil justice system with the goal of ensuring fairness, balance, and predictability in civil litigation.
Many of amici’s members conduct business in
States other than their State of incorporation and
State of principal place of business (the forums in
which they are subject to general personal jurisdiction, see Daimler AG v. Bauman, 571 U.S. 117, 137
(2014)). They therefore have a substantial interest in
the rules governing the extent to which a State can
subject nonresident corporations to specific personal
jurisdiction.
Subjecting corporations to specific jurisdiction for
claims that lack the requisite relation to the forum
State would eviscerate the due process limits on personal jurisdiction recognized by this Court in numerous cases over the eight decades since International
Shoe Co. v. Washington, 326 U.S. 310 (1945)—and
could well expose corporations that do business nationwide to what amounts to general personal jurisdiction in all fifty States.
Amici file this brief to explain that the decisions
below should be reversed because they are irreconcilable with this Court’s precedents and would have
harmful consequences for companies that conduct activities or have relationships with entities in many
States.

3
INTRODUCTION AND
SUMMARY OF ARGUMENT
This Court has consistently restrained lower
courts’ expansive views of general personal jurisdiction. It held in Daimler that general jurisdiction is
available only when a “corporation’s ‘affiliations with
the State are so “continuous and systematic” as to render it “essentially at home in the forum State,” which
ordinarily restricts general jurisdiction to a corporation’s State of incorporation and State of principal
place of business. 571 U.S. at 127 (quotation marks
and alterations omitted). And it reaffirmed that holding in BNSF Railway Co. v. Tyrrell, 137 S. Ct. 1549
(2017), overturning the Montana Supreme Court’s
narrow interpretation of Daimler.
The Court’s rejection of efforts to “stretch general
jurisdiction beyond limits traditionally recognized”
means that “general jurisdiction has come to occupy a
less dominant place in the contemporary [personal jurisdiction] scheme.” Daimler, 571 U.S. at 132-33. Specific jurisdiction typically provides the basis for lower
courts’ adjudicatory power.
The post-Daimler focus on specific jurisdiction has
led some courts to adopt impermissibly expansive
views of specific jurisdiction that require essentially
no connection between the defendant’s activities
within the State and the particular claims asserted in
the litigation—transmogrifying specific jurisdiction
into a chimera of general jurisdiction. Thus, for example, the courts below allowed respondents to maintain
lawsuits against Ford even though all of the conduct
that allegedly gave rise to respondents’ claims—the
design, manufacturing, and sale of the vehicles at issue—occurred outside of the respective forum States.

4
The linchpin of specific jurisdiction is “the ‘relationship among the defendant, the forum, and the litigation.’” Daimler, 571 U.S. at 133. “For a State to exercise jurisdiction consistent with due process, the defendant’s suit-related conduct must create a substantial connection with the forum State.” Walden, 571
U.S. at 284 (emphases added; quotation marks omitted). That standard must be applied on a claim-byclaim basis: the defendant’s suit-related conduct must
create a connection with the forum State for “the specific claims at issue.” BMS, 137 S. Ct. at 1781.
The requirement of a suit-related connection between the defendant and the forum protects the defendant against the unfair and unpredictable assertion of state authority. It also furthers important federalism values, ensuring that “the States through
their courts, do not reach out beyond the limits imposed on them by their status as coequal sovereigns”
by intruding impermissibly on the authority of sister
States. World-Wide Volkswagen Corp. v. Woodson,
444 U.S. 286, 292 (1980).
A causal connection between the defendant’s inforum activity and the plaintiff’s claim is essential to
establish the necessary substantial relationship between the dispute and the forum. Indeed, this Court
has consistently rejected specific jurisdiction where,
as in this case, there is no such causal link.
But the existence of some causal connection is not
by itself sufficient. A court must assess the substantiality of the connection between the forum State and
the defendant’s claim-related conduct relative to the
connections to other States. If some States have a
more substantial connection—and the forum State’s
less-substantial connection is one present in numerous other States—federalism values preclude the

5
State with a less-substantial connection from displacing the authority of States with a significantly more
substantial relationship to the claim.
The impermissibly sweeping approach to specific
personal jurisdiction applied below does not merely
contradict this Court’s precedents. It also imposes
new and unwarranted burdens on businesses, the
courts, and the federal system. If permitted to stand,
companies that do business in a large number of
States would have no ability to predict where, and to
what extent, they might be haled into court. States
would be empowered to regulate conduct that occurred entirely outside their borders—contrary to the
principles of federalism that undergird this Court’s
personal jurisdiction precedents.
For all of these reasons, the Court should hold
that specific jurisdiction is not available where there
is no causal connection between the defendant’s in-forum activities and the plaintiff’s claim.
ARGUMENT
I.

Specific Personal Jurisdiction Requires A
Substantial Causal Connection Between The
Defendant’s Forum Contacts And The Asserted Claim.

These cases present a question that this Court did
not answer in BMS: what standard should courts apply to determine whether contacts between a defendant and the forum State are sufficiently related to a
claim to support the exercise of specific jurisdiction.
While the Court has not squarely addressed that
question, its precedents mark a clear path to the answer. A claim has the necessary “substantial connection” to the forum, when the defendant purposefully

6
engaged in forum activity that both is a cause of the
asserted claim and also establishes a sufficiently significant relationship between the defendant, the asserted claim, and the forum State. The facts of these
cases fall far short of satisfying that requirement.
A. Specific Jurisdiction Rests On The Forum’s Legitimate Interest In Regulating
The Defendant’s Conduct Underlying
The Asserted Claim.
BMS was not the first decision of this Court to recognize that specific jurisdiction rests on the connection between the defendant’s forum contacts and the
plaintiff’s claim. The Court articulated that requirement more than seventy years ago in its seminal decision in International Shoe.
Explaining why specific jurisdiction comports
with due process, the International Shoe Court observed that where “a corporation exercises the privilege of conducting activities within a state, it enjoys
the benefits and protection of the laws of that state.”
326 U.S. at 319. “The exercise of that privilege,” the
Court reasoned, “may give rise to obligations; and, so
far as those obligations arise out of or are connected
with the activities within the state, a procedure which
requires the corporation to respond to a suit brought
to enforce them can, in most instances, hardly be said
to be undue.” Ibid. (emphases added).
The Court went on to conclude that Washington’s
exercise of specific jurisdiction over the defendant was
permissible because the defendant had engaged in activities within the State and “[t]he obligation which is
here sued upon arose out of those very activities,” making it “reasonable and just * * * to permit the state to

7
enforce the obligations which [the defendant] ha[d] incurred there.” 326 U.S. at 320 (emphases added).
The International Shoe framework thus rests on
the principle that due process permits a defendant to
be haled into court on a specific jurisdiction theory
only for claims that arise out of “the very activities”
that the defendant engaged in within the forum State,
or that enforce the “obligations” that the defendant incurred in the State—because of the forum’s legitimate
interest in regulating a corporation’s activities within
the forum.
This Court has repeatedly reaffirmed that basic
rationale for specific jurisdiction. In J. McIntyre Machinery, Ltd. v. Nicastro, for example, the plurality
opinion contrasted specific jurisdiction with general
jurisdiction. It explained that general jurisdiction allows a State “to resolve both matters that originate
within the State and those based on activities and
events elsewhere.” 564 U.S. 873, 881 (2011) (plurality
opinion). By contrast, specific jurisdiction involves a
“more limited form of submission to a State’s authority,” whereby the defendant subjects itself “to the judicial power of an otherwise foreign sovereign to the
extent that power is exercised in connection with the
defendant’s activities touching on the State.” Ibid. (emphasis added).
In Goodyear Dunlop Tires Operations, S.A. v.
Brown, the Court explained that specific jurisdiction
“depends on an affiliation between the forum and the
underlying controversy.” 564 U.S. 915, 919 (2011) (alterations and quotation marks omitted). Thus, specific
jurisdiction exists only where a defendant engages in
continuous activity in the State “and that activity gave
rise to the episode-in-suit,” id. at 923, or where the defendant commits “‘single or occasional acts’ in a State

8
[that are] sufficient to render [it] answerable in that
State with respect to those acts, though not with respect to matters unrelated to the forum connections,”
ibid. (quoting Int’l Shoe, 326 U.S. at 318).
Most recently, in BMS, the Court emphasized that
“a defendant’s general connections with [a] forum are
not enough” to support specific jurisdiction. 137 S. Ct.
at 1781. Rather, the Court explained, “[i]n order for a
court to exercise specific jurisdiction over a claim,
there must be an ‘affiliation between the forum and
the underlying controversy.’” Ibid. (quoting Goodyear,
564 U.S. at 919). “When there is no such connection,
specific jurisdiction is lacking regardless of the extent
of a defendant’s unconnected activities in the State.”
Ibid.
In sum, specific jurisdiction is justified by the forum State’s relationship to the controversy between
the parties, because that is what gives the forum a legitimate interest in regulating the actions by the defendant that gave rise to the plaintiff’s claim.
B. The Relationship Between The Defendant’s Forum Activity And The Asserted
Claim Must Be Sufficiently Significant
To Create A Substantial Connection With
The Forum State.
For the reasons just discussed, specific jurisdiction is permissible only when “the defendant’s suit-related conduct * * * create[s] a substantial connection
with the forum State.” Walden, 571 U.S. at 284 (emphasis added). This substantial connection ensures
that the forum State has the legitimate interest required to regulate the conduct on which the claim is
based.

9
To satisfy the “substantial connection” requirement, there must be (1) a causal connection between
the defendant’s forum activity and the asserted claim
that (2) is substantial relative to other States’ connections to the controversy.
A court analyzing the permissibility of exercising
specific jurisdiction should therefore proceed as follows:
•

Identify the defendant’s purposeful claim-related activity within the forum;2

•

Determine whether that in-forum activity
gave rise to the asserted claim (i.e., caused the
injury that is the subject of the claim); and

•

Assess whether the causal connection
between the in-forum activity and the claim is
sufficiently substantial to ensure that the
forum’s exercise of jurisdiction will not
impermissibly intrude on the authority of
other States.

Each step in the analysis is essential in order for a
court to exercise specific jurisdiction consistent with
due process.
1. The defendant’s forum activity must be
causally connected to the plaintiff’s claim.
Due process requires, at a minimum, some causal
connection between the defendant’s in-forum activity
and the asserted claim.

As this Court explained in Walden, the “defendant himself”
(571 U.S. at 284) (quotation marks omitted) must be the one who
“form[s] the necessary connection with the forum State” (id. at
285).

2

10
The Court has held repeatedly that specific jurisdiction requires “a connection between the forum and
the specific claims at issue.” BMS, 137 S. Ct. at 1781
(emphasis added). As the Court put it in Walden, in
order for a court to exercise specific jurisdiction, the
asserted claims “must arise out of contacts that the
defendant himself creates with the forum State.” 571
U.S. at 284 (first emphasis added; quotation marks
omitted). And as petitioner details (Br. 21-22), every
one of this Court’s cases upholding the exercise of specific jurisdiction since International Shoe has pointed
to a contact by the defendant in the forum State giving
rise to the asserted claims.
In other words, specific or “case-linked” jurisdiction is proper only when the forum State’s legitimate
interest is established with respect to the “underlying
controversy” (Walden, 571 U.S. at 283 n.6 (quotation
marks omitted))—i.e., the particular transaction or occurrence by the defendant in the forum giving rise to
the asserted claim. As discussed above (at 7-8), that is
what distinguishes specific from general jurisdiction,
which instead relies on the forum’s authority over a
defendant “based on a forum connection unrelated to
the underlying suit.” Walden, 571 U.S. at 283 n.6.
Respondents invoke the Court’s sometimes-disjunctive phrasing of this test, arguing that the Court’s
use of the terms “connected with” or “related to” in addition to “arise out of,” when describing the requisite
relationship between the defendant’s in-forum activity and the plaintiff’s claim, relaxes the requirement
that the defendant’s in-forum conduct cause the plaintiff’s claim. No. 19-368 (Gullett) Br. in Opp. 24-25. In
respondents’ view, as long as the defendant’s in-forum

11
activity is somehow similar to the out-of-forum conduct that allegedly harmed the plaintiff, specific jurisdiction is permissible.
That approach is flawed for three reasons.
First, this Court squarely rejected the identical argument in BMS. The plaintiffs there included both
California and non-California residents who sued a
drug company in California on product liability
claims. There was no question that the company sold
significant quantities of the drug (Plavix) in California—over $900 million in the six-year period preceding the lawsuit. But the Court held that the out-ofState plaintiffs could not invoke specific jurisdiction,
because “all the conduct giving rise to [their] claims
occurred elsewhere.” 137 S. Ct. at 1782. The Court explained that specific jurisdiction requires a substantial connection between the plaintiff’s claims and the
defendant’s conduct in the forum and that, “[w]hen
there is no such connection, specific jurisdiction is
lacking regardless of the extent of a defendant’s unconnected activities in the State.” Id. at 1781 (emphases added). Moreover, this rule applies “even when
third parties,” such as the other plaintiffs residing in
California, “can bring claims similar to those brought
by the nonresidents” based on injuries allegedly
caused by the same product. Ibid.
Respondents’ argument here is indistinguishable
from the one rejected in BMS: that in-forum sales of a
product to third parties subjects the product manufacturer to specific jurisdiction regarding claims arising
out of sales to other parties in other States. The
Court’s holding—that specific jurisdiction is available
only when the defendant engaged in suit-related activity within the forum that is alleged to have caused

12
the specific plaintiff’s injury—requires rejection of respondents’ argument here.
Second, respondents’ argument separates the
standard for specific jurisdiction from the principles
set forth in International Shoe. International Shoe
makes clear that in order for specific jurisdiction to
attach, a company’s forum activities must “give rise to
obligations”—i.e., legal claims. Int’l Shoe, 326 U.S. at
319. Where, as here, the same claims could be asserted against the company if the company had never
engaged in any in-forum conduct at all, then the asserted claim is not based on any “obligations” that the
defendant has incurred in the forum, and specific jurisdiction is improper. See also pages 6-8, supra.
Third, respondents’ approach is standardless.
When is in-forum conduct sufficiently “related” to the
plaintiff’s claim? Here, respondents point to the Ford’s
sales and advertising of the same car model. E.g., Gullett Br. in Opp. 13. Must that occur at the same time
as the sale of the car involved in the plaintiff’s claim?
What if the in-forum sales occurred only before or after the sale of that vehicle? What if the in-forum sales
involved different Ford models, but the different models used some of the same parts as the car involved in
the plaintiff’s claim? What if the different models sold
in the forum were designed by the same team and/or
manufactured at the same plaint? What if Ford only
advertises in the forum but does not make sales there?
The possibilities regarding the potential scope of
“related” are unlimited—and that is the point. “[A]s
many a curbstone philosopher has observed, everything is related to everything else.” California Div. of
Labor Standards Enf’t v. Dillingham Const., N.A.,
Inc., 519 U.S. 316, 335 (1997) (Scalia, J., concurring)
(citing New York State Conference of Blue Cross &

13
Blue Shield Plans v. Travelers Ins. Co., 514 U.S. 645,
655 (1995)).
If the requirement of a causal connection to the
plaintiff’s claim were eliminated, lower courts would
have no guidance regarding the scope of specific jurisdiction. And specific jurisdiction would, at least in
some jurisdictions, very quickly become the equivalent of general jurisdiction. Instead of referring to the
“sizable” volume of overall sales in the forum—the approach rejected in Daimler, 571 U.S. at 139—plaintiffs will refer instead to sales or marketing of specific
products. That is a distinction without a difference:
companies that do business nationwide will still be
subject to suit on the overwhelming majority of claims
in each of the 50 States.
Precedent, principle, and administrability therefore all demonstrate that specific jurisdiction requires
a causal link between the defendant’s in-forum activity and the plaintiff’s claim.
2. The defendant’s forum activity must also
bear a sufficiently significant relationship
to the claim to create a substantial connection with the forum State.
A causal connection is a necessary, but not sufficient, for specific jurisdiction. In addition, the forum’s
connection to the controversy must be “substantial.”
Walden, 571 U.S. at 284.
The substantiality requirement ensures respect
for each State’s “sovereign power to try causes in their
courts” recognizing that “[t]he sovereignty of each
State . . . implie[s] a limitation on the sovereignty of
all its sister States.” BMS, 137 S. Ct. at 1780 (quoting
World-Wide Volkswagen, 444 U.S. at 293) (alterations
in original). Requiring a defendant to “submit[] to the

14
coercive power of a State that may have little legitimate interest in the claims in question,” ibid., would
allow “the States[,] through their courts,” to “reach out
beyond the limits imposed on them by their status as
coequal sovereigns in a federal system,” World-Wide
Volkswagen, 444 U.S. at 292.
As petitioner explains (Br. 42), the Court need not
decide in this case the nature of the required causal
connection, because here there is no causal connection
between petitioner’s in-forum activity and respondents’ claims. But if the Court does reach the issue,
then certainly the proximate-cause standard advocated by petitioner (Br. 42-45) would ensure the substantial relationship necessary to protect the fairness
and federalism interests.
For example, if the defendant sold a product in the
forum State to a plaintiff who was injured by the
product in the forum State, specific jurisdiction is
proper. Similarly, where the plaintiff alleges a
manufacturing or design defect, courts in the State of
manufacture or design will be able to exercise specific
jurisdiction. In such situations, there will be a strong
causal link between the claim and the defendant’s inforum activity. And a court moving to the final step of
the analysis described above would likely find that the
forum’s connection to the defendant’s claim-related
conduct is substantial relative to other States.
This Court’s decision in Burger King Corp. v.
Rudzewicz provides another example. The dispute in
that case arose out of a contract in which the defendant’s counterparty (the plaintiff in the lawsuit) was
located in the forum. The Court observed that the defendant negotiated the agreement by reaching out to
the forum, the contract itself indicated that the plaintiff was located in the forum, and “the parties’ actual

15
course of dealing repeatedly confirmed that [the plaintiff’s] decisionmaking authority” resided in the forum.
471 U.S. 462, 480-81 (1985). The defendant’s purposeful interaction with the forum resident plainly constituted a cause of the plaintiff’s claim. And given these
facts, the forum had a substantial connection with the
dispute, such that there could be no doubt that the forum State’s assertion of jurisdiction would not interfere with the sovereignty of other States that might
have a connection to the claim.
To the extent that the Court chooses not to adopt
a proximate-cause requirement in this case, it should
make clear that the existence of some causal relationship is not sufficient, and a court must assess whether
the defendant’s in-forum activity provides a sufficiently substantial connection to permit the exercise
of jurisdiction.
That is because some quantum of causal
relationship, without more, does not protect the
federalism values underlying specific jurisdiction. For
example, one Illinois court permitted nonresident
plaintiffs to bring product liability claims against a
drug manufacturer because the manufacturer
conducted clinical trials for the drug in Illinois—as
well as in 44 other States. M.M. ex rel. Meyers v.
GlaxoSmithKline LLC, 61 N.E.3d 1026, 1037-39 (Ill.
Ct. App. 2016), cert. denied, 138 S. Ct. 64 (2017). Even
assuming there were some causal connection between
the clinical trials and the claim, the claim had no more
to do with Illinois than it did with any of the other 44
States in which clinical trials were conducted. And
under that logic, product manufacturers would be
subject to specific jurisdiction in every State in which
they engage in even de minimis design, testing, or
production activities. Indeed, if a plaintiff from one

16
State can choose to sue a company in any of 45
different States (the situation in M.M.), then the
specific-jurisdiction inquiry is rendered toothless.
Other examples are not hard to imagine. For instance, it is common for companies to have some employees who work remotely. Suppose a large team of
employees living and working in a number of different
States contribute to a product’s design, with most located at the defendant’s headquarters but with a
handful of remote employees in other States being the
only connection between the defendant, the product at
issue, and those States. Plaintiffs alleging a designdefect claim might note a but-for causal connection between the remote employees’ actions and their tort
claim and argue that they could sue the company in
any one of the States where just a small number of
employees work remotely. But under such circumstances, other States—such as the State in which the
company’s headquarters is located and the State in
which the product is manufactured—would have a
much stronger interest in adjudicating that claim.
3. The stream-of-commerce metaphor does
not support a different specific jurisdiction
standard.
This Court has on occasion referred to the
“stream-of-commerce” in connection with specific jurisdiction. Those references provide no basis for dispensing with the requirement of a substantial causal
connection between the defendant’s forum contacts
and the plaintiff’s claim.
The phrase first appeared in World-Wide
Volkswagen, where the Court suggested that a forum
State may “assert[] personal jurisdiction over a corporation that delivers its products into the stream of

17
commerce with the expectation that they will be purchased by consumers in the forum State.” 444 U.S. at
298. As petitioner explains (see Br. 33-36), that discussion addressed the circumstances in which a defendant can be found to have purposefully availed itself of the forum, not the distinct question of whether
the defendant’s in-forum conduct is sufficiently related to the asserted claim to support the exercise of
specific jurisdiction.
To date, the Court has not found personal jurisdiction over any defendant using the stream-of-commerce rationale. See Todd David Peterson, Categorical Confusion in Personal Jurisdiction Law, 76 Wash.
& Lee L. Rev. 655, 714 (2019). Disagreement over the
stream-of-commerce theory’s scope produced dueling
opinions in Asahi Metal Industry Co. v. Superior
Court, where Justice O’Connor, writing on behalf of
four justices, stated that a manufacturer’s knowledge
that its product was sold in a forum State, without
more, was insufficient to hale it into court there (480
U.S. 102, 112 (1987)), while Justice Brennan, also
writing on behalf of four justices, disagreed, asserting
that a “regular and anticipated flow” of products to a
State could form the basis for specific jurisdiction
there (id. at 117). Neither opinion upheld personal jurisdiction over the defendant. Id. at 113 (O’Connor, J.)
(plurality opinion); id. at 116 (Brennan, J., concurring); see also Nicastro, 564 U.S. at 881-83 (Kennedy,
J.) (plurality opinion) (describing the conflict created
by the Asahi opinions).
Most recently, a plurality of this Court has underscored that regardless of its disputed contours, the
stream-of-commerce doctrine “does not amend the
general rule of personal jurisdiction” (Nicastro, 564

18
U.S. at 882 (Kennedy, J.) (plurality opinion)), including the requirement that there be some causal connection between the defendant’s in-forum activity and the
plaintiff’s claim. Simply put, “the stream-of-commerce
metaphor cannot supersede either the mandate of the
Due Process Clause or the limits on judicial authority
that Clause ensures.” Id. at 886.
In the product liability context, World-Wide
Volkswagen itself made clear that the stream-of-commerce rationale assumes that the product at issue is
“purchased by consumers in the forum State” and
“has there been the source of injury to its owner or to
others.” 444 U.S. at 297-98. This Court clarified in
BMS that distinct sales of the same product within
the forum cannot support specific jurisdiction, holding
that the act of selling an allegedly defective product in
a forum State is insufficient when the specific unit
that caused the alleged harm was purchased somewhere else. BMS, 137 S. Ct. at 1778, 1781-82.
In short, when a substantial causal connection between the defendant’s in-forum conduct and the plaintiff’s claim is missing, specific jurisdiction is unavailable.
4. Respondents’ policy arguments in favor of
a broad specific jurisdiction standard are
unpersuasive.
The policy arguments offered by respondents are
inconsistent with this Court’s precedents and provide
no support for adopting a watered-down test for specific jurisdiction.
Respondents assert that it is “arbitrary” (Gullett
Br. in Opp. 26) or “illogical” (No. 19-369 (Bandemer)
Br. in Opp. 26) to have a test for specific jurisdiction

19
that requires a plaintiff to sue a defendant outside of
the forum where she lives and was injured.
To begin with, in a very large class of cases, the
plaintiff will be able to file suit in her home State, because the requisite causal connection will be present—for example, the defendant will have sold the
product in that State. The claims of the California
plaintiffs in BMS provide an example of this typical
reality.
Where the causal connection is not present, the
preclusion of specific jurisdiction, far from being “arbitrary,” follows naturally from this Court’s precedents, which establish that personal-jurisdiction
standards protect the defendant’s due-process rights
and federalism values, not the “the convenience of
plaintiffs or third parties.” Walden, 571 U.S. at 284.
As Walden and BMS make clear, “the ‘minimum contacts’ inquiry principally protects the liberty of the
nonresident defendant, not the interests of the plaintiff.” Walden, 571 U.S. at 290 n.9; see BMS, 137 S. Ct.
at 1779 (“The primary focus of [the] personal jurisdiction inquiry is the defendant’s relationship to the forum State”). In Walden, the plaintiffs were thus required to sue the defendant in Georgia, across the
country from their home in Nevada. See 571 U.S. at
279.
In addition, respondents’ assumption that a “distant forum” where the vehicle at issue was designed,
manufactured, or originally sold has “no interest in
the controversy” because the injury did not occur
there (Gullett Br. in Opp. 26-27) is simply incorrect.
Those are the States in which the defendant engaged
in conduct that gave rise to the respondents’ claims—
conduct that those States have an interest in regulating.

20
Respondents also take issue with the possibility
that plaintiffs seeking to bring claims against multiple defendants in a single action—as respondent
Bandemer did here, suing the driver, owner, and manufacturer of the vehicle that injured him—will be unable to bring those claims in a single forum that can
exercise personal jurisdiction over all of the defendants. Bandemer Br. in Opp. 26-27.
But that concern too is foreclosed by precedent.
This Court has long held that personal jurisdiction
must be established “as to each defendant.” Rush v.
Savchuk, 444 U.S. 320, 332 (1980). And it reaffirmed
that long-standing rule in BMS, explaining that plaintiffs’ ability to sue a California-based distributor of the
drug at issue did not establish personal jurisdiction
over the drug’s manufacturer. 137 S. Ct. at 1783.
Because the constitutional limit on state power
applies with respect to each individual over whom the
forum seeks to exercise its adjudicatory authority, and
defendants’ forum contacts inevitably will differ, all
defendants will not always be amenable to suit in a
single forum. But that possibility does not support
abandoning bedrock principles of due process. Nor
does it have anything to do with the level of connection
required between the defendant’s in-forum conduct
and the asserted claim: proceeding in multiple forums
against multiple defendants always will be a potential
result in a defendant-centered personal jurisdiction
analysis. Moreover, any inconvenience to the plaintiff
in proceeding in multiple forums would be ameliorated by the more ready availability of evidence and
witnesses in the forum where the defendant’s allegedly tortious conduct actually occurred.
And respondents’ dire prediction that “[t]ying a
court’s jurisdiction to causation” principles “is a recipe

21
for disaster” (Gullett Br. in Opp. 28) is overstated. The
majority of lower courts already require some form of
causal connection between a defendant’s in-forum
conduct and the asserted claim. See Pet. Br. 44-45.
But respondents have not—and cannot—demonstrate
that the requirement of a causal connection has hamstrung personal-jurisdiction doctrine or caused widespread hardship in those jurisdictions.
*

*

*

In sum, specific jurisdiction depends on a substantial causal connection between a claim, the defendant,
and the forum State—meaning that there is both a
causal relationship between the defendant’s in-forum
activity and the asserted claim, and that the defendant’s forum activity bears a significant enough relationship to the claim to create a substantial connection with the forum State relative to other States.
C. The Expansive Standard Applied Below
Extended The Forum States’ Authority
Far Beyond The Bounds Permitted By
The Constitution.
A key reason for a rigorous specific jurisdiction
standard is preventing illegitimate exercises of a
State’s authority. The facts of these cases provide
clear examples of States reaching out to decide claims
in which they lack a legitimate interest.
The cars involved in the accidents that are the
subjects of these lawsuit were not designed, made,
sold, or serviced by Ford in Minnesota or Montana.
Respondents’ claims thus relate entirely to Ford’s outof-State conduct—and therefore fail to satisfy the constitutional requirement of a substantial connection

22
between the defendant’s in-State activities and the
claims in the lawsuit.
The Minnesota Supreme Court held that specific
jurisdiction was proper because Ford generally markets its vehicles and “collected data on how its cars
performed” in Minnesota. Bandemer Pet. App. 17a.
The Montana Supreme Court similarly concluded that
because Ford “advertises, sells, and services vehicles
in Montana” (Gullett Pet. App. 17a), it could be haled
into court there.
But Ford’s marketing conduct in Minnesota and
Montana had nothing to do with the claims in these
lawsuits. Respondents’ claims sound in product liability: They allege that Ford was negligent in its manufacturing and design of the cars in which they were
injured and that Ford failed to warn consumers about
the cars’ alleged defects. Even if these claims arguably
had some connection to Ford’s advertising—and they
do not—respondents did not (and likely could not) allege that the advertising in the forum States is relevant to their own claims. In short, Ford’s in-State marketing did not give rise to respondents’ claims in any
way.
The same is true of Ford’s purported collection of
data from Minnesota drivers and of Ford’s sales and
servicing of vehicles in Montana. Ford took no action
in Minnesota or Montana involving the respondents
or the actual vehicles at issue in these cases. See BMS,
137 S. Ct. at 1781 (holding that the fact that defendant “conducted research in California on matters unrelated” to plaintiff’s claims did not support specific
jurisdiction, even when the allegedly defective product was sold in California).

23
Indeed, large companies like Ford do business in
many States—likely all of them. Subjecting them to
“specific” jurisdiction in each one of those States
would effectively create a new form of general jurisdiction, undermining decisions like Daimler that hold
that general jurisdiction should be limited to the fora
in which a defendant is truly at home. See, e.g., Adv.
Tactical Ordnance Sys., LLC v. Real Action Paintball,
Inc., 751 F.3d 796, 803 (7th Cir. 2014) (noting that
finding specific jurisdiction over a company based on
contacts that exist in every State “would violate the
principles on which Walden and Daimler rest”).
Respondents’ approach would mean that a company selling a product nationwide can be sued on all
claims related to that product in all fifty States—effectively recreating the unduly expansive approaches
to general jurisdiction that preceded Daimler by setting the bar for specific jurisdiction far too low. See
Linda J. Silberman, The End of Another Era: Reflections on Daimler and Its Implications for Judicial Jurisdiction in the United States, 19 Lewis & Clark L.
Rev. 675, 687 (2015).
That result would also permit a “State that may
have little legitimate interest in the claims in question” to overturn the greater interests of other States
in regulating the defendants’ conduct that gave rise to
the asserted claim based on the defendants’ contacts
with those forums. BMS, 137 S. Ct. at 1780. As BMS
made clear, this “federalism interest may be decisive,”
trumping any concerns of convenience. Ibid. That is
because “restrictions on personal jurisdiction ‘are
more than a guarantee of immunity from inconvenient or distant litigation. They are a consequence of
territorial limitations on the power of the respective

24
States.’” Ibid. (quoting Hanson v. Deckla, 357 U.S.
235, 251 (1958)).
To be sure, in BMS the nonresident plaintiffs’ injuries had occurred outside of the forum State,
whereas here, the vehicle collisions were in Minnesota
and Montana, respectively. But the location of the injury on its own is not a basis for exercising specific jurisdiction when the injury was not allegedly inflicted
there by the defendant; the BMS Court’s observation
that the nonresidents had been injured outside the forum only underscored that the case for specific jurisdiction was “even weaker” than in Walden, where the
effects of the alleged misconduct were felt by plaintiffs
in the forum. BMS, 137 S. Ct. at 1782. Indeed, Walden
makes clear that the location where a plaintiff suffered “an injury is jurisdictionally relevant only insofar as it shows that the defendant has formed a contact with the forum State.” 571 U.S. at 290 (emphasis
added). In other words, the specific jurisdiction inquiry focuses on the defendant’s contacts with the forum State, as those contacts alone may make the defendant answerable to the State’s authority. Id. at
284.
Here, the relevant vehicles were in the forum
States—and the accidents happened there—because
of the acts of third parties. And because the vehicle
accidents had no connection to Ford’s in-State conduct, permitting the exercise of specific jurisdiction by
the forum States violates the federalism principles
underlying specific jurisdiction by intruding on the
States with a greater connection to the defendant’s
suit-related conduct, such as where the allegedly defective vehicles were designed, manufactured, and
sold.

25
Moreover, Ford could not structure its conduct to
avoid being haled into court in any forum where an
accident happens to occur. See also pages 26-28, infra.
Accordingly, the fact that the accidents occurred in
Minnesota and Montana does not cabin the overbroad
approach to specific jurisdiction reflected in the decisions below.
It is also not enough that Ford could foresee a vehicle it sold traveling into those States. See, e.g., Gullett Pet. App. 17a; Gullett Br. in Opp. 20. This Court
has already rejected the notion, also in the context of
automobiles, that “foreseeability” of travel “because
an automobile is mobile by its very design and purpose” is “a sufficient benchmark for personal jurisdiction under the Due Process Clause.” World-Wide
Volkswagen, 444 U.S. at 295. More broadly speaking,
the Court also rejected the notion that a product manufacturer in effect “appoint[s] the chattel his agent for
service of process,” subjecting the manufacturer to
specific jurisdiction wherever the product may possibly travel, foreseeable or not. Id. at 296.
In short, the in-State activities of Ford upon which
the courts below relied lacked the requisite connection
to respondents’ claims, and thus do not permit the
Minnesota or Montana courts to exercise specific personal jurisdiction over those claims. The Court should
therefore repudiate the overly expansive approach to
specific jurisdiction adopted by the courts below.

26
II. Exercising Specific Jurisdiction Over Matters That Lack A Substantial Connection To
The Defendant’s Forum Contacts Harms
Businesses And The Federal System.
Decisions such as the rulings below not only violate due process principles—they inflict severe burdens on the business community and the federal system.
A. Overly Expansive Approaches To Jurisdiction Impose Greater Uncertainty On
Businesses.
This Court has long recognized that the standards
governing specific jurisdiction “give[] a degree of predictability to the legal system that allow[] potential
defendants to structure their primary conduct with
some minimum assurance as to where that conduct
will and will not render them liable to suit.” WorldWide Volkswagen, 444 U.S. at 297. Companies know
that they generally have a “due process right not to be
subjected to judgment in [the] courts” of a State other
than their home State, or States, unless they have affirmatively established contacts with the State itself
that make them subject to specific jurisdiction there.
Nicastro, 564 U.S. at 881; see also Walden, 571 U.S.
at 284.
This “[p]redictability is valuable to corporations
making business and investment decisions.” Hertz
Corp. v. Friend, 559 U.S. 77, 94 (2010). For example,
“[i]f a business entity chooses to enter a state on a
minimal level, it knows that under the relationship
standard, its potential for suit will be limited to suits
concerning the activities that it initiates in the state.”

27
Carol Rice Andrews, The Personal Jurisdiction Problem Overlooked in the National Debate About “Class
Action Fairness,” 58 S.M.U. L. Rev. 1313, 1346 (2005).
The approach to specific jurisdiction embodied in
the decisions below makes it impossible for
corporations to structure their affairs to limit the
number of jurisdictions in which they can be sued by
any plaintiff residing anywhere. Many corporations
advertise and sell their products in a large number of
States—and often do so nationwide. If merely
advertising products in a forum were deemed
sufficient to give rise to specific jurisdiction on any
claim related to those products—even products made
and sold outside the State—a corporation could be
sued in any State with respect to its sales in every
State. The respondents here, for example, could on
that theory sue in California, Alaska, Missouri, or
Texas—indeed, “wherever [the company] does
business.” Pet. Br. 29-30. Yet “[s]uch exorbitant
exercises of all-purpose jurisdiction would scarcely
permit out-of-state defendants” to structure their
affairs to provide some assurances about where they
could be sued. Daimler, 571 U.S. at 139.
Applying specific jurisdiction in such an unpredictable and indiscriminate manner would be unfair
to companies that do business throughout the country
and irreconcilable with the Due Process Clause. See
Nicastro, 564 U.S. at 885 (explaining that “[j]urisdictional rules should avoid the[] costs [of unpredictability] whenever possible”); Burger King, 471 U.S. at 475
n.17 (explaining that due process is violated when a
defendant “has had no ‘clear notice that it is subject to
suit’ in the forum and thus no opportunity to ‘alleviate
the risk of burdensome litigation’ there” (quoting

28
World-Wide Volkswagen, 444 U.S. at 297)). And consumers would ultimately bear the increase in legal
costs produced by this unbridled approach to specific
jurisdiction.
B. Permitting Specific Jurisdiction Without
A Substantial Connection Between The
Forum State And The Claim Would Intrude On Other States’ Sovereignty.
The minimum-contacts requirement for exercising specific jurisdiction “acts to ensure that the
States[,] through their courts, do not reach out beyond
the limits imposed on them by their status as coequal
sovereigns in a federal system.” World-Wide
Volkswagen, 444 U.S. at 292.
But that is exactly what States would be able to
do under the approach to specific jurisdiction employed below. That test permits a State with no real
interest in the defendant’s allegedly tortious conduct
to intrude on the sovereignty of those States that have
a substantial connection to that conduct and therefore
a real interest in adjudicating claims involving the defendant’s actions.
There are no offsetting benefits to permitting this
serious erosion of judicial federalism. States have no
legitimate interest in asserting specific jurisdiction so
expansively and inserting themselves into matters or
disputes that are much more closely connected to
other States. And a State’s ability to adjudicate claims
based on a defendant’s in-State activities fully vindicates a State’s interest in protecting its citizens and
regulating conduct within its borders. See, e.g., Walden, 571 U.S. at 284.
The broader approach taken by the courts below
is therefore not necessary to ensure that companies

29
may be held accountable for conduct actually taking
place in a forum State. Rather, it serves only to consume the resources of the courts of that State in deciding disputes that—like in these cases—have only
random or “fortuitous” connections to the forum
States (World-Wide Volkswagen, 444 U.S. at 295),
while displacing the authority of States with greater
interests in the disputes.
CONCLUSION
The judgments of the Montana and Minnesota Supreme Courts should be reversed.

Respectfully submitted.
STEVEN P. LEHOTSKY
JONATHAN D. URICK
U.S. Chamber
Litigation Center
1615 H Street, NW
Washington, DC 20062
Counsel for Amicus Curiae the Chamber of
Commerce of the United
States of America

ANDREW J. PINCUS
Counsel of Record
ARCHIS A. PARASHARAMI
DANIEL E. JONES
CARMEN N. LONGORIAGREEN
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
(202) 263-3000
apincus@mayerbrown.com

PATRICK HEDREN
ERICA KLENICKI
Counsel for Amici Curiae
Manufacturers’ Center
for Legal Action
733 10 St., NW
Suite 700
Washington, DC 20001
Counsel for Amicus Curiae the National Association of Manufacturers
H. SHERMAN JOYCE
LAUREN S. JARRELL
American Tort Reform
Association
1101 Connecticut Ave,
NW, Suite 400
Washington, DC 20036
Counsel for Amicus Curiae the American Tort
Reform Association
MARCH 2020

